           GPO’S PASSPORT PRINTING COSTS
AUDIT
REPORT
                   December 22, 2008
09-02




         OFFICE OF INSPECTOR GENERAL
                                                        Memorandum
                                                        OFFICE OF THE INSPECTOR GENERAL
                     WASHINGTON, DC 20401




   DATE:    December 22, 2008

REPLY TO
 ATTN OF:   Assistant Inspector General for Audits and Inspections

 SUBJECT:   Final Report on Audit of GPO’s Passport Printing Costs
            Report Number 09-02

      TO:   Chief Financial Officer
            Managing Director, Security and Intelligent Documents

            Enclosed please find the subject final report. Please refer to the Executive
            Summary for the overall audit results. Our evaluation of your response has been
            incorporated into the body of the report and the response is included in its entirety
            at Appendix C. We consider management’s actions responsive to each of the
            report recommendations. Recommendations one and five will be closed upon
            issuance of this report. Recommendations two, three, and four will remain open
            pending the finalization of the five-year Capital Plan for Passports, the addendum
            to the GPO/Department of State Memorandum of Understanding regarding
            pricing and cost review, and the updated passport pricing structure. Please notify
            us when those actions are complete. The status of each recommendation upon
            issuance of this report is included in Appendix D. The final report distribution is
            in Appendix E.

            We appreciate the courtesies extended to the audit staff. If you need additional
            information or would like to arrange a meeting to discuss this final report, please
            contact Mr. Karl Allen, Supervisory Auditor at (202) 512-0277, or me at
            (202) 512-2009.




            Kevin J. Carson
            Assistant Inspector General for Audits and Inspections

            Enclosure

            cc:
            Chief of Staff
            Chief Management Officer
            General Counsel
Contents

Executive Summary ............................................................................................................. i

Introduction.......................................................................................................................... 1

Findings and Recommendations......................................................................................... 4

           Finding A. Generation of Excess Cash ..................................................................... 4

           Finding B. Change in Indirect Overhead Allocation Rate........................................10

           Other Observations ....................................................................................................13

Appendix A – Objectives, Scope, and Methodology .........................................................14

Appendix B - Acronyms Used in the Report ....................................................................17

Appendix C – Management’s Response.............................................................................18

Appendix D – Status of Recommendations .......................................................................25

Appendix E – Report Distribution .....................................................................................26

Major Contributors .............................................................................................................27
                                 Office of Inspector General
Report Number 09-02                                                             December 22, 2008

                              GPO’s Passport Printing Costs

                                      Executive Summary

Background. The Office of Inspector General (OIG) has completed an audit of passport
printing costs at the Government Printing Office (GPO). GPO is the sole source for
producing, storing, and delivering blank U.S. passport books (passports) for the
Department of State (DOS). GPO produced an average of nearly 2.3 million passports
each month during the first eight months of Fiscal Year (FY) 2008.1 Specifically,
through May of FY 2008, GPO produced a total of 18.6 million passports and realized
revenue from passport sales of more than $275 million, including $71.5 million in net
income. Recently, Congress and the news media have questioned the price of passports
charged to the American public, and have also questioned GPO about the legality and
reasonableness of the net income derived from passport sales to the DOS.

Objectives. The overall audit objective was to assess GPO’s basis for establishing the
price the agency charges the DOS for each blank passport book produced. Specific
objectives included determining whether GPO had an effective passport cost
accumulation and allocation methodology in place that would support the price charged
to DOS for each passport produced, and if the income derived from passport sales was
allowable and reasonable under applicable requirements and guidelines.

Results of Audit. In conjunction with the DOS, GPO established a price of $14.802 that
it charges DOS for each passport produced. The price of $14.80 includes the cost of
material, labor, overhead, inventory, and future capital expansion. GPO established the
price in accordance with 44 U.S.C. § 309, “Revolving fund for operation and
maintenance of Government Printing Office” (Title 44). The price was mutually agreed
to with the DOS through a Memorandum of Understanding (MOU). We analyzed GPO’s
passport production financial activities through May of FY 2008 and specifically tested
GPO’s direct passport costs by tracing reported costs for materials, labor, and direct
overhead to original source documents. We concluded that GPO had adequate
documented support for all direct costs charged to passports and had a cost accumulation
process that was sufficient for the Agency to base its passport price.

We identified two specific areas where GPO can improve the accountability and
transparency of its passport costing process to better prepare the Agency for any future
audits or reviews by outside entities and to promote good customer relations with the
DOS. First, through the May 2008 audit time period, we found that GPO generated

1
  From October 2007 through May 2008.
2
  The DOS currently charges the public $100 for an adult passport. This fee, effective February 1, 2008,
for persons 16 years and older, consists of $75 for the passport application and $25 for processing.


                                                     i
excess cash from passport sales to DOS beyond what was necessary to recover costs and
provide for mutually agreed upon future capital expansion. This occurred because GPO
did not revise its original passport pricing structure and did not reach final agreement
with the DOS on a capital investment plan to earmark the excess cash. Through May of
FY 2008, GPO generated over $43 million in excess cash from passport sales. As further
explained in this report, due to GPO’s business-like revolving fund under Title 44 and its
accrual basis of accounting, it is legal and expected for GPO to carry profits or losses in
any given fiscal year depending on a variety of factors as it determines how best to set
rates and prices to reimburse its full costs of operation.

Second, we found that GPO, at its discretion, changed its indirect overhead cost
allocation methodology for passport costs. However, it did so without documenting the
justification and analysis for the change. The Agency increased the amount of indirect
overhead allocated to passport costs from 5.65 percent or $4 million in FY 2007, to 52
percent or $40 million through May FY 2008.

In light of these findings, we recommended that GPO:

          Finalize its capital investment plan and proposed addendum to the MOU with
           DOS regarding passport pricing, to better account for the excess cash
           generated from passport sales.

          Document and explain the Agency’s change in the indirect overhead cost rate
           allocation to the cost of passports to explain the increase in indirect overhead
           allocated to passports.

          Revise the passport pricing structure to be more reflective of the current
           passport costing and production process.

In addition, we made other observations during the audit in the areas of passport
managerial costing policies and procedures documentation, and the immaterial
overstatement of labor costs that were presented for management’s consideration.

Recommendations. A total of five recommendations were made to GPO management
which, if implemented, will help GPO improve the accountability and transparency of its
passport costing process to better prepare the Agency for any future audits or reviews by
outside entities and also promote good customer relations with the DOS.

Management’s Response. GPO Management concurred with each of the report’s
recommendations and has either already taken or plans to take responsive corrective
actions.




                                             ii
Introduction
GPO produces, stores, and delivers U.S. passports for the DOS. In FY 2007, GPO
produced a total of 20,606,000 passports for DOS. This was a significant increase from
the 13,661,000 passports produced by GPO in FY 2006 and was attributable to both an
unprecedented demand for passports and the replacement of the legacy passport with the
new electronic passport. The electronic passport contains a computer chip and other
security features required by the DOS. Approximately 14,815,000, or 72 percent of the
20,606,000 passports produced by GPO in FY 2007, were the new electronic passports.

Title 44

GPO establishes the price that it charges DOS for each passport in accordance with
Title 44 and through a formal Memorandum of Understanding (MOU) with DOS.

        Title 44. Two of the key requirements of Title 44 are: (1) GPO must fund its
         programs and operations through a self-sustaining, business-type revolving fund
         that GPO reimburses at rates and prices that recover the full cost of goods and
         services delivered to customers; and (2) GPO must prepare a system of accounts
         and financial reports following the accrual basis of accounting in which it
         recognizes revenues when earned, and expenses when incurred, without regard to
         the timing of the receipt or disbursement of cash.

        GPO/DOS Memorandum of Understating (MOU). In November 2003, GPO and
         DOS entered into an MOU that established the obligations and protocols for each
         agency to follow in connection with production of passports. In the most recent
         version of the MOU (December 2007) DOS and GPO agreed to include in the
         price of passports estimated charges of the proportionate share of overhead costs
         for GPO and a contribution for future capital assets. The MOU requires GPO to
         provide DOS with a price per book annually.

The Government Accountability Office (GAO) provides guidelines for the operation of
revolving funds in Volume IV of its Principles of Federal Appropriations Law.3 GAO
describes a revolving fund as a self-sustaining, business-like activity in which a
buyer/seller relationship exists. Unlike some other revolving funds, Title 44 does not
include a periodic miscellaneous receipts payment requirement, which would require
GPO to make periodic payments of any revolving fund surplus to the general fund of the
Treasury. This allows GPO discretion to adjust its prices so that it can recover losses or
offset profits to minimize annual losses or gains.4

3
  Government Accountability Office, Principles of Federal Appropriations Law, Volume IV, Second
Edition (March 2001), pp. 15-81 to 15-129. This document can be found at
http://www.gao.gov/special.pubs/d01179sp.pdf.
4
  See, e.g., Government Accountability Office (GAO) Opinion B-181714-O.M., January 3, 1975 (GAO
found that the Military Sealift Command Industrial Fund could periodically adjust tariff rates to recover
losses or offset profits because its statute does not provide that excess earnings be transferred to the U.S.
Treasury as miscellaneous receipts).


                                                       1
Thus, for GPO as a self-sustaining, business-like activity, profit generation or losses can
be expected. However, revolving funds are intended to operate on a break-even basis or
reasonably close to it, at least over the long term.5

GPO Passport Costs Information

GPO uses the following systems as the platform for its system of accounts for
accumulating cost data:

        Oracle Financial On-Demand
        Accounts Payable Interface (API)
        Voucher Processing and Payment System (VOPPS)
        Work in Process (WIP) System
        Cost Accounting System (COST)
        Production Reporting for Operations, Budgeting, and Expenditures (PROBE)

GPO reports all costs annually through the Agency’s financial statements, as well as
monthly through the GPO monthly financial package distributed to senior GPO
managers. GPO has designated eight revenue-producing business units that produce
goods or provide services to external customers, for which it reports business data. The
GPO Business Units include:

        Official Journals of Government
        Security and Intelligent Documents
        Creative and Digital Media Services
        Customer Services
        Publication and Information Sales
        Agency Distributions
        Library Services and Content Management
        Other Operations

Business data related to passports is contained in the Security and Intelligent Documents
(SID) business unit. During the audit period of October 2007 through May 2008,
passports were the only source of revenue for the SID business unit. SID accumulates
and reports its own profit and loss data following accrual accounting as required by
Title 44. By following the accrual basis of accounting, the portion of the passport price
covering the funding of capital assets (such as the GPO Secure Production Facility6) is
recorded as revenue. The costs for the asset are then recorded as a capital asset, not an
expense, and the operating expenses for the capital asset (such as depreciation) do not
start until the asset is placed in operation. The result is that for the early years of the


5
  Government Accountability Office, Principles of Federal Appropriations Law, Volume IV, Second
Edition (March 2001), p. 15-117.
6
  The Secure Production Facility (SPF) is an alternate passport production facility that GPO established in
2008 at the NASA Stennis Space Center in Mississippi.


                                                     2
asset’s life cycle, GPO will show a large net income, which is gradually reduced as an
asset becomes operational and depreciation expenses are incurred.

GPO does not have a documented managerial costing policy. However, several Federal
managerial costing standards exist. The most notable of these standards include:

      Cost Accounting Standards that the Cost Accounting Standards Board developed
       to achieve uniformity and consistency in the measurement, assignment, and
       allocation of costs to Government contracts.

      Statement of Federal Financial Accounting Standards Number 4, “Managerial
       Cost Accounting Concepts and Standards for the Federal Government,” issued on
       July 31, 1995, by the Federal Accounting Standards Advisory Board.




                                            3
Findings and Recommendations

Finding A. Generation of Excess Cash

Through the first eight months (October 1, 2007 to May 31, 2008) of FY 2008, GPO
generated in excess of $43 million in cash from passport sales to the DOS beyond what
was necessary to recover costs and provide for mutually agreed upon future capital
expansion. GPO generated this excess cash because Agency management has not revised
the original electronic passport pricing structure established prior to FY 2007, and did not
reach final agreement with the DOS on a passport Capital Investment Strategy to earmark
the excess cash—both of which GPO’s MOU with the DOS requires. The excess cash
was generated primarily because of (1) the higher than anticipated demand from the DOS
for the production of passports during FY 2008, (2) cost under-runs on the Secure
Production Facility (SPF), and (3) the lack of a mutually agreed upon Capital Investment
Plan between GPO and the DOS.

Pricing Agreement Between GPO and DOS

The December 2007 MOU between GPO and DOS states that:

               GPO will provide DOS with a price per book on an annual basis. The
               annual price will be determined by using an estimate of all anticipated
               direct and indirect costs of manufacture plus the estimated
               proportionate share of overhead costs for GPO, and a contribution to
               GPO for new investment. In addition, the price per book will include
               the estimated costs of any on-going and/or anticipated future capital
               investments to support the passport program. The current passport
               price is provided in Appendix H and the Current Investment Plan is
               provided in Appendix I.

Appendix H of the MOU states that the price for capital improvement set aside
(contribution for new investment) is $1.83 for each passport book. The Current
Investment Plan section (Appendix I) of the MOU has not been completed.

To date, the only capital investment project agreed to by the GPO and DOS and approved
by the congressional Joint Committee on Printing (JCP) was the SPF at the Stennis Space
Center in Mississippi. In its July 10, 2007, request to the JCP for establishing the SPF,
GPO calculated that the cost to establish and finance the SPF would be $1.84 for each
passport book that GPO produced with the full required amount to be accumulated by
January 2008. The JCP, in its letter of approval for the SPF, states:

               The JCP authorizes financing the establishment and operation of the
               Stennis passport facility only as requested in the GPO letter dated
               July 10, 2007. GPO’s proposal contemplated reimbursement by the
               Department of State for all costs of passport production. GPO must
               obtain JCP approval for additional spending on equipment or other
               costs in accordance with the JCP resolution adopted on April 9, 1987.




                                                 4
According to the GPO Chief Financial Officer (CFO), GPO and DOS also agreed that
GPO would establish an inventory reserve of $35 million for which GPO decided to fund
at $1.38 per each passport produced.

Excess Cash Generated

Through May of FY 2008, GPO passport production operations generated over $43
million in cash beyond that necessary to recover operational costs, establish an inventory
reserve, and fund the SPF as agreed to with DOS. Table 2 provides details of the
components of this excess cash.

          Table 2. Excess Cash Generated by GPO Through Passport Sales
                             Through May of FY 2008

 Passport Contribution Margin                                            $111,612,930
    Less: Overhead Allocation                                             (40,051,000)
 Passport Net Income                                                        71,561,930
    Less: Reserved for SPF during FY 2008                                 (13,884,210)
    Less Reserved for Inventory during FY 2008                            (14,099,598)
 Excess Cash                                                              $43,578,122


In addition to the reserves for the SPF and inventory that were agreed to by DOS, GPO
established two more cash restrictions specifically for passport operations: Future Capital
Projects—State Department (established on April 18, 2008), and Shortfall Contingency
(established on May 14, 2008) as shown in Table 3:

           Table 3. Additional Cash Restrictions Applicable to Passports
                            Through May of FY 2008

 Excess Cash                                                               $43,578,122
    Less: Reserved for Future Capital Projects—State Department            (19,767,294)
    Less: Reserved for Shortfall Contingency                               (11,258,730)
  Excess Cash After All Restrictions                                       $12,552,098


All of the cash generated from GPO operations was placed in the account, “Fund Balance
With Treasury.” The cash restrictions were not actual accounts but a way of identifying
excess cash as a control to ensure that it was expended for its intended purposes. The
passport contribution margin noted above does not include amounts necessary to
contribute to investment in the overall GPO support infrastructure (i.e., costs to fix a
leaky roof or repair an elevator). Those amounts, when considered, would reduce the
amount of excess cash.




                                             5
Passport Price Not Revised

GPO developed the current passport price of $14.80 prior to the start of FY 2007. The
price reflected the initial production of the electronic passports and presented a
significant challenge for GPO to develop because it involved much unknown information
and no previous production history for basing estimates. Although the initial pricing
estimate proved accurate, several factors have occurred since that time that could not only
impact the price, but also contributed to the generation of excess cash. Specifically, we
identified that:

      GPO produced significantly more passports than the amount on which the original
       price was based. Specifically, GPO based the original passport price of $14.80
       per book on producing an estimated 14.2 million books annually. In FY 2007,
       because of an unprecedented demand, GPO produced more than 20 million books
       and GPO had already produced more than 18 million books through May of FY
       2008.

      GPO continued to include $1.83 in the price of each passport produced for
       financing of the SPF, even though GPO had fully funded that facility by
       December 27, 2007. The MOU allows GPO to include a cost for capital asset
       financing in the line item of the pricing structure of each passport book.
       However, paragraph G.4 of the MOU states that “once the agreed upon number of
       books has been produced, the charge will be removed from future book orders.”

      GPO continued to include $1.38 in the passport price for building up the raw
       materials inventory reserve, even though GPO met its desired inventory reserve
       level of $35,000,000 on January 28, 2008. The MOU does not address inventory
       reserve even though the CFO stated that GPO and DOS agreed to the $35 million
       reserve level.

      The original passport price of $14.80 included $1.10 per book for overhead based
       on an estimate of $15.6 million annually for GPO overhead. GPO changed its
       overhead allocation methodology in FY 2008 (see Finding B) and through May
       2008, GPO allocated over $40 million in overhead to passports at $2.16 per book.

      GPO began to depreciate the SPF when the facility became operational in May
       2008. However, these specific depreciation costs were not included in the overall
       passport price.

Uncertainty with DOS

The CFO stated that there has been much uncertainty from DOS regarding the number of
passports to produce. In fact, during May 2008, while this audit was being conducted,
there was a time when GPO was not producing passports because it had not received any
orders from DOS. This production uncertainty has occurred even though the MOU
between GPO and the DOS states that “DOS will provide GPO with a projection of the


                                            6
monthly delivery amount for each type of blank book shipment at least one month prior
to October 1 of each year.” This projection of yearly passport requirements by the DOS
has not occurred. The CFO stated that because of the uncertainty in the number of
passport books to produce, it has been necessary to leave the price at $14.80 to have a
sufficient amount of cash on hand to cover contingencies and future capital projects.

Agreement with DOS on Capital Investment Plan not Reached

GPO did not reach agreement with the DOS on a Capital Investment Plan, as the MOU
requires. In April 2008, the CFO directed that his staff establish a restricted fund for
future capital projects for DOS by continuing to use the $1.83 for each passport
retroactive to December 27, 2007, when GPO met the reserve for the SPF. GPO then set
up a restricted fund balance for “Future Capital Projects,” but did not reach agreement
with the DOS as to what projects to develop.

Because of the significant amount of excess cash that GPO was generating from passport
sales, it appeared that GPO was potentially charging DOS more than necessary.
Although GPO officials acknowledged a large income related to passport sales, these
same officials were concerned that in the midst of uncertainty in passport production, a
downward adjusting of the passport price could leave GPO in an unfavorable financial
position.

Corrective Actions Taken by GPO

In recent months, GPO has proactively acted to address the issue of having a significant
amount of excess cash on-hand.

      In February 2008, GPO and the DOS started a bi-monthly Supply/Demand
       Working Group to negotiate and agree to detailed short-term production and
       delivery schedules and production ramp-up plans.

      In April 2008, the CFO directed that his staff establish a new restricted cash
       account for future capital projects.

      In June 2008, GPO and the DOS initiated a Passport Capital Investment Plan
       Working Group that would meet periodically to discuss and formalize plans for
       passport capital projects.

      The GPO Managing Director, Security and Intelligent Documents (SID)
       developed a proposed five-year Capital Investment Plan for passports. The plan
       contains a detailed listing of proposed passport capital projects with an estimated
       cost in excess of $203 million. The Managing Director, SID stated that both GPO
       and the DOS would have to approve the plan during future Working Group
       meetings and that once approved, GPO would adjust the passport price
       accordingly.



                                            7
      In July 2008, the CFO developed a proposed addendum to the MOU with the
       DOS requiring that GPO: (1) perform semi-annual pricing reviews to ensure that
       the passport pricing reflects the then current costs and demand expectations; and
       (2) perform annual analyses to determine if GPO has either over-recovered or
       under-recovered its costs and to consider those costs in the price of passports on a
       prospective basis.

      In September 2008, GPO returned $51 million to the DOS of the amount of
       excess cash accumulated during FY 2008. This amount was generated because of
       higher than anticipated demand for passport production, cost underruns on the
       SPF project, lack of an agreed to Capital Investment Plan and exceeding the $35
       million agreed to level for raw materials inventory.

Recommendations

The Managing Director, SID, in conjunction with the CFO, should:

1. Ensure that GPO continues its bi-monthly meetings with the DOS through the
Supply/Demand Working to negotiate and agree to detailed short-term production and
delivery schedules and production ramp-ups.

Management’s Response. Concur. The Managing Director, SID plans to encourage,
attend and foster the GPO/DOS Supply/Demand Working Group meetings and expects
more defined passport production and delivery schedules to be negotiated in FY 2009.
The complete text of management’s response is in Appendix C.

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation will be closed upon issuance of this report.

2. Work with the DOS and establish a time frame for formalizing and finalizing the five-
year Capital Investment Plan for Passports.

Management’s Response. Concur. The Managing Director, SID met with the Deputy
Assistant Secretary of State for Passport Services on November 21, 2008. During this
meeting, the Deputy Assistant Secretary of State stated they were still studying specific
line items on the five-year Capital Investment Plan. The Managing Director, SID fully
expects that the DOS will make a decision regarding the five-year Capital Investment
Plan during the month of January 2009. Following a decision, the FY09 portion of the
five-year plan will be initiated (if approved by DOS) and an addendum to the MOU can
be signed that defines the new passport pricing schedule in Appendix H and the approved
capital expenditure plan in Appendix I (see Appendix C).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but undispositioned, and will
remain open for reporting purposes pending finalization of the five-year Capital
Investment Plan for passports.


                                            8
3. Finalize the proposed addendum to the GPO/DOS MOU.

Management’s Response. Concur. The Managing Director, SID will facilitate the
future discussions between DOS and GPO financial and legal experts to define processes
agreeable to both parties and work to moderate an addendum to the MOU that satisfies
the requirements of both organizations (see Appendix C).

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but undispositioned, and will
remain open pending finalization of the addendum to the MOU with the DOS.

4. Update the passport pricing structure taking into account the formal Capital
Investment Plan for Passports, the revised indirect cost allocation rate, depreciation of the
SPF, and current production estimates. Keep the pricing structure in the same format as
the current costing structure.

Management’s Response. Concur. The Managing Director, SID will work with the
SID Comptroller and GPO’s CFO to present the passport pricing documents in accurate,
readable and descriptive formats that are in keeping with our current costing structure
(see Appendix C).

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but undispositioned, and will
remain open pending finalization of the revised passport costing structure.




                                              9
Finding B. Change in Indirect Overhead Allocation Rate
GPO could not provide sufficient documentation to support the increase from FY 2007 to
FY 2008 in the indirect overhead allocated to passports. The CFO and Controller both
stated that the previous year’s (FY 2007) indirect overhead rate was too low because of
the increased volume and growth of the SID business unit and GPO, therefore, needed a
revised overhead allocation methodology to provide a more accurate and equitable
distribution of costs. Despite an increase in the allocation rate from 5.65% to 51.88%,
GPO did not document its justification and analysis for the change. As a result, we could
not attest to the reasonableness of the more than $40 million in indirect overhead costs
GPO allocated for passport production through May of FY 2008 ($2.16 for each
passport). Although there was a change in the indirect overhead allocation methodology,
the change did not result in any additional cost to the GPO nor did it result in an increase
in the price of passports produced for the DOS.

Indirect Overhead Cost Allocation Standards

Title 44 allows GPO to reimburse its Revolving Fund for the cost of services and supplies
furnished at rates that include charges for indirect overhead. Indirect costs are costs of
resources jointly or commonly used to produce two or more types of outputs but are not
specifically identifiable with any of the outputs. The Statement of Federal Financial
Accounting Standards (SFFAS) Number 4 cites typical examples of indirect costs such as
the costs of general administrative services, security, rent, employee health and recreation
facilities, and operating and maintenance costs for buildings, equipment, and utilities.7
Section 8-418.1 of the Cost Accounting Standards (CAS) states:

                  (1) a business unit shall have a written statement of accounting policies
                  and practices for classifying costs as direct or indirect which shall be
                  consistently applied; (2) indirect costs shall be accumulated in indirect
                  cost pools which are homogeneous; and (3) pooled costs shall be
                  allocated to cost objectives in reasonable proportion to the beneficial or
                  causal relationships of the pooled costs to cost objectives.

At GPO, there is an indirect cost pool that consists of the total costs from the following
organizations:

         Executive Offices (for example, Office of the Public Printer and Office of the
          General Counsel)
         Mandated Programs (for example, the OIG and Office of Equal Employment
          Opportunity)
         Quality Assurance
         Finance and Administration
         Acquisitions
         Information Tech and Services
         Environmental Services

7
    Paragraph 91 of SFFAS 4.


                                                     10
      Human Capital
      Labor Relations
      Facilities
      Other Operations

GPO allocates the total costs from these organizations to the business units in GPO.

SFFAS 4 allows management to select the overhead allocation methodology that best
meets their needs as long as they document and explain any changes:

               144. This standard does not require the use of a particular type of
               costing system or costing methodology. Federal entities are engaged in
               a broad range of diverse operations. A costing system appropriate for
               one type of operation may not be appropriate for other operations. At
               many federal agencies, cost accounting practices are either relatively
               new or experimental. It is too early to tell which cost systems are best
               for specific types of operations. As experience and research in cost
               accounting progress, reporting entities and responsibility segments may
               find a preferred costing methodology for their operations.

               145. Agency and program management is in the best position to select a
               type of costing system that would meet its needs. In making the
               selection, management should evaluate alternative costing methods and
               select those [methods] that provide the best results under its operating
               environment.

               146. The standard requires that a costing methodology, once adopted,
               be used consistently. Consistent use provides cost information that can
               be compared from year to year. However, this requirement does not
               preclude necessary improvements and refinements to the system or
               methodology, as long as the effect of any change is documented and
               explained [emphasis added]. On the contrary, improvements are
               encouraged.

Indirect Overhead Increased In FY 2008

The amount of indirect overhead that GPO allocated to passport costs (that is, SID)
increased significantly from FY 2007 to FY 2008 as the following table shows:

              Table 1. Increase in Overhead Allocated to Passport Cost
                          FYs 2007 and 2008 through May

        Fiscal Year                           Amount                                 Rate
           2007                             $ 4,087,000                              5.65%
           2008                             $40,051,000                             51.88%

The CFO and Controller stated that the overhead allocation rate for FY 2007 was too low
due to the increased volume and growth of the SID business unit and, therefore, the
Agency had to adjust the rate beginning in FY 2008. During FY 2007, GPO allocated



                                                 11
indirect overhead by the number of its employees. For FY 2008, GPO changed its
method and began using net costs8 as the basis for indirect overhead allocation.

Although management is allowed to select whatever overhead allocation method that best
meets their needs, GPO officials did not document and explain the change as required by
paragraph 146 of SFFAS 4. These officials could not provide documentation supporting:
the evaluation of alternative costing methods; selection of the method that provided the
best results under GPO’s operating environment; evidence of the accuracy of the current
method; or the briefing of the revised method and its impact on passport costing, to GPO
senior management. Without documented evidence supporting management’s analysis,
we could not attest to the accuracy and reasonableness of the more than $40 million
($2.16 for each passport) in indirect overhead costs GPO allocated for passport
production through May of FY 2008. Regardless of the allocation methodology chosen,
however, the change did not result in any additional cost to the GPO nor did it result in an
increase in the price of passports produced for the DOS.

Recommendation
5. The CFO should document and explain the change in indirect overhead allocation
methodology from FY 2007 to FY 2008, including an analysis of how and why the new
methodology better meets management’s needs for accurate cost information.

Management’s Response. Concur. The GPO CFO provided an explanation of the
Agency’s change in the indirect overhead cost rate allocated to passports for FY 2008 and
beyond (see Appendix C).

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. The recommendation will be closed upon issuance of this report.




8
 Net costs are the direct costs of operating the business unit, less pass-through costs of finished goods that
are charged to the business unit, but have no value-added by the business unit. These finished goods that
pass through without value added include: printing and reproduction, GPO Access charges, blank paper
sold to customer agencies, and reimbursable postage.


                                                      12
Other Observations

The following observations were made during the audit and are presented for
management’s consideration and disposition as necessary.

No Passport Costing Policy

GPO had no formal documented passport costing policy and procedures. Paragraph 71 of
SFFAS 4 states:

              Documentation—All managerial cost accounting activities, processes,
              and procedures should be documented by a manual, handbook, or
              guidebook of applicable accounting operations. This reference should
              outline the applicable activities, provide instructions for procedures and
              practices to be followed, list the cost accounts and subsidiary accounts
              related to the standard general ledger, and contain examples of forms
              and other documents used.

GPO Instruction 825.18A, “Internal Control Program,” May 28, 1997, section 8.G
requires that, “. . . the documentation for transactions, management controls, and other
significant events must be clear and readily available for examination.” Thus, a formally
documented passport costing process would improve internal controls by outlining all
key authorities, duties, and responsibilities in authorizing, processing, recording, and
reviewing official agency transactions thereby facilitating vulnerability assessments and
internal control reviews.

Immaterial Overstatement of Labor Costs

The labor costs for one of 11 cost centers charging labor hours to passports (Cost Code
2000 Office of Security and Intelligent Documents) were overstated. GPO charged all of
the labor costs for Cost Code 2000 fully to passports. However, the Managing Director,
SID stated that his office does not work 100 percent of the time on passports because the
office works on more than just passports.

In addition, of 13 employees in Cost Code 2000 whose time was directly charged to
passport costs, 5 of the employees charged more than 8 hours a day, 40 hours a week, but
didn’t have any corresponding charge for overtime. Through further review we found
that those employees worked an alternate work schedule and were paid correctly.
However, through oversight, GPO did not properly adjust costing records for passport
costing and as a result overstated the amount of labor for those five employees by $5,752
for February 2008.

The CFO should assess the impact of each of these observations with respect to passport
pricing and operations and take action as deemed appropriate.




                                                 13
             Appendix A. Objectives, Scope, and Methodology

We performed this audit from March through November 2008 at the GPO Central Office
in Washington, D.C., in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform our work to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the objectives. We believe that the evidence obtained during this
review provides a reasonable basis for our findings and conclusions based on our
objectives.

Objectives

The overall audit objective was to assess GPO’s basis for establishing the passport
production rate that it charges DOS. Specifically, we determined if GPO had an effective
passport cost accumulation and allocation methodology in place to support the price
charged to DOS for each passport produced, and if the amount of income realized from
passport sales was allowable under applicable requirements.

Scope and Methodology

To perform our audit, we analyzed the financial operations of GPO’s Security and
Intelligent Documents business unit for FY 2008 through May 2008. To accomplish our
objectives, we performed the following:

      Reviewed GPO passport production cost accumulation and reporting procedures
       contained in Title 44, the DOS/GPO MOU, GPO’s FY 2007 Annual Report and
       Financial Statements, GPO’s Monthly Financial Packages, and other financial
       documents.

      Interviewed the following GPO officials: CFO; Controller; Controller, Plant
       Operations; Controller, Systems; Assistant Controller, Finance and
       Administration Division; Manager, Financial Systems; Director, Accounting
       Operations; Chief, Plant Production Rate and Investigation Branch; Chief Supply
       Management Officer; Managing Director, Security and Intelligent Documents;
       Chief Acquisition Officer; and Chief Information Officer.

      Reviewed various cost reports provided by the officials interviewed.

      Tested direct costs incurred by the Security and Intelligent Documents business
       unit for one selected month (February 2008) by tracing the costs reported on the
       monthly Gross Profit Summary report, to original source documents including
       material order slips, invoices, and time and attendance reports.

We also reviewed the following Federal costing standards:




                                           14
                                                                             Appendix A

      The Cost Accounting Standards (CAS) developed by the Cost Accounting
       Standards Board to achieve uniformity and consistency in the measurement,
       assignment, and allocation of costs to Government contracts.

      Statement of Federal Financial Accounting Standards Number 4 (SFFAS 4),
       “Managerial Cost Accounting Concepts and Standards for the Federal
       Government,” issued on July 31, 1995, by the Federal Accounting Standards
       Advisory Board.

We compared those standards with the processes GPO used.

Management Controls Reviewed

We reviewed and evaluated the management controls associated with GPO’s procedures
for accumulating and reporting passport cost data. Specifically, we determined whether
GPO had effective policies and procedures in place to ensure that GPO personnel were
correctly and accurately recording passport cost data in the Agency’s cost accumulation
system. In conducting our review of management controls, we followed GAO Internal
Control Standards and GPO Instruction 825.18A, “Internal Control Program,” May 28,
1997, paragraph 7(a), which states, “The Public Printer has the overall responsibility to
ensure that an effective internal control structure is established and maintained by GPO’s
managers for all programs, functions, and activities.” The audit identified that GPO had
no formal documented passport costing policy and procedures, which we describe in
detail in this report. Implementing the recommendations in this report should improve
that management control deficiency.

Computer-Generated Data

We relied on computer-processed data for this audit. We obtained cost reports for the
Security and Intelligent Documents business unit that the Controller for Plant Operations
generated from the Oracle financial system. To assess the reliability of that data, we
reviewed the work of the independent public accounting firm KPMG and performed our
own testing.

KPMG audited GPO’s Financial Statements for the year ending September 30, 2007. As
part of that audit, KPMG evaluated the information systems control environment to
assess the effectiveness of the GPO control environment over its financial systems.
KPMG reported that that there were significant deficiencies in the design and/or
operations of GPO’s IT general controls in Entity-Wide Security, Access, System
Software, and Service Continuity. KPMG made several recommendations for
improvement, to which GPO concurred.




                                            15
Appendix A

We performed limited testing to validate the reliability and integrity of that data by
tracing the costs reported for one month—February 2008—to the original source
documents. We found no discrepancies. Based on the work of KPMG as well as on our
limited testing, we placed reliance on the adequacy of the data and considered it
sufficient for the purposes of our audit objectives.




                                          16
        Appendix B. Acronyms Used in the Report

CAS        Cost Accounting Standards
CFO        Chief Financial Officer
DOS        U.S. Department of State
FY         Fiscal Year
GPO        Government Printing Office
JCP        Joint Committee on Printing
MOU        Memorandum of Understanding
OIG        Office of Inspector General
SFFAS      Statement on Federal Financial Accounting Standards
SPF        Secure Production Facility




                               17
Appendix C. Management’s Response




               18
     Appendix C




19
Appendix C




             20
     Appendix C




21
Appendix C




             22
     Appendix C




23
Appendix C




             24
                  Appendix D. Status of Recommendations


Recommendation No.        Resolved   Unresolved   Open/ECD*      Closed
       1                     X                                     X
       2                     X                    January 2009
       3                     X                     March 2009
       4                     X                     March 2009
       5                     X                                     X

*Estimated Completion Date.




                                        25
                      Appendix E. Report Distribution

Government Printing Office

Public Printer
Deputy Public Printer
Chief Human Capital Officer
Chief Information Officer
Chief Technology Officer
Director, Congressional Relations
Managing Director, Plant Operations




                                      26
Major Contributors to the Report
Karl Allen, Supervisory Auditor




                                   27
